   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106

December 30, 2009

Report Number: A-07-09-02758

Mr. Michael Smith
Assistant Vice President, Medicare Part A Audit
Noridian Administrative Services
P.O. Box 6720
Fargo, North Dakota 58108

Dear Mr. Smith:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Geographic Classification of Skagit Valley
Hospital for Medicare Operating Disproportionate Share Hospital Payment.” We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, the final report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02758 in all correspondence.


                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Michael Smith

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL


    REVIEW OF GEOGRAPHIC
   CLASSIFICATION OF SKAGIT
     VALLEY HOSPITAL FOR
     MEDICARE OPERATING
   DISPROPORTIONATE SHARE
      HOSPITAL PAYMENT




                       Daniel R. Levinson
                        Inspector General

                         December 2009
                         A-07-09-02758
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 or older, people under age 65 with certain disabilities, and people of
all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a kidney
transplant). The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare hospitals submit cost reports to their Medicare fiscal intermediaries or Medicare
administrative contractors (MAC) annually. (Section 911 of the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003 requires CMS to transfer the functions of fiscal
intermediaries to MACs by October 2011.) Each cost report is based on the hospital’s financial
and statistical records, and the hospital attests to the accuracy of the data when submitting its
cost report. After acceptance of the cost report, the fiscal intermediary performs a tentative
settlement. Before making final settlement, the fiscal intermediary reviews the cost report and, if
necessary, conducts an audit. The fiscal intermediary then issues a notice of program
reimbursement. As the final settlement document, the notice of program reimbursement shows
whether the Medicare program owes the hospital or the hospital owes the Medicare program.

The cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (operating DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. Medicare fiscal intermediaries or MACs make determinations, based on Federal
regulations, as to whether a hospital qualifies for a Medicare operating DSH payment and the
size of the payment. These determinations depend on numerous factors, including whether the
hospital is in an urban area or a rural area.

Skagit Valley Hospital (Skagit Valley) is a 137 bed, acute-care hospital located in Mount
Vernon, Washington. Skagit Valley claimed an operating DSH adjustment of $2,159,331 on its
cost report for the fiscal year ending December 31, 2004.

For the cost report reviewed, Skagit Valley’s fiscal intermediary was Noridian Administrative
Services, LLC (Noridian). Noridian is based in Fargo, North Dakota, and at the time of our audit
served as the fiscal intermediary for hospitals in several states, including Washington.

OBJECTIVE

Our objective was to determine whether the geographic classifications used by Noridian to
calculate the Medicare operating DSH adjustment resulted in an overpayment.

SUMMARY OF FINDINGS

Geographic classifications used by Noridian to calculate the Medicare operating DSH adjustment
resulted in an overpayment at one hospital. Of the operating DSH adjustment of $2,159,331 that
Skagit Valley claimed on its cost report for the fiscal year ending December 31, 2004, $417,591



                                               i
was excessive because Noridian calculated the operating DSH adjustment as if the hospital was
urban for the entire cost report period. However, Skagit Valley was rural for the period
January 1, 2004, through September 30, 2004. This resulted in an operating DSH overpayment
of $417,591.

This overpayment occurred because Noridian’s internal controls did not always ensure that
hospitals received Medicare operating DSH adjustments based upon the correct geographic
classification.

RECOMMENDATION

We recommend that Noridian recover the $417,591 in Medicare operating DSH overpayment
from Skagit Valley.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian did not concur with our findings and
recommendation. While Noridian did not agree that an overpayment occurred, it initiated a
reopening of the cost report to protect the government’s right to recover an overpayment pending
CMS’s resolution of the audit findings. In addition, Noridian did not agree that it had
insufficient controls in place to prevent an overpayment. Noridian’s comments appear in their
entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Noridian’s comments and the additional documentation it provided, we revised
our report as it pertains to the sufficiency of Noridian’s internal controls in order to describe the
cause of the overpayment more precisely. We maintain that the remaining findings and
recommendation are valid.




                                                  ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATION...............................................................................3

          FEDERAL REQUIREMENTS........................................................................................3

          OVERPAYMENT RECEIVED...................................................................................... 3

          RECOMMENDATION ...................................................................................................4

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE .................................................4
               Effective Date of Reclassification .......................................................................4
               Single Geographic Classification for Each Cost Reporting Period .....................5
               Sufficiency of Internal Controls...........................................................................5

APPENDIX

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                    iii
                                           INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 or older, people under age 65 with certain disabilities, and
people of all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a
kidney transplant). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare hospitals submit cost reports to their Medicare fiscal intermediaries or Medicare
administrative contractors (MAC) annually. 1 Each cost report is based on the hospital’s
financial and statistical records, and the hospital attests to the accuracy of the data when
submitting its cost report. After acceptance of the cost report, the fiscal intermediary performs a
tentative settlement. Before making final settlement, the fiscal intermediary reviews the cost
report and, if necessary, conducts an audit.

The fiscal intermediary then issues a notice of program reimbursement. As the final settlement
document, the notice of program reimbursement shows whether the Medicare program owes the
hospital or the hospital owes the Medicare program.

The cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (operating DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. Medicare fiscal intermediaries or MACs make determinations, based on Federal
regulations, as to whether a hospital qualifies for a Medicare operating DSH payment and the
size of the payment. To determine whether a hospital is entitled to an operating DSH
adjustment, the fiscal intermediary must calculate the disproportionate patient percentage (DPP).
Then, using the DPP, together with the number of beds and the hospital’s location (i.e., urban or
rural), the fiscal intermediary must determine whether the hospital qualifies for an operating
DSH payment. If the hospital’s geographic classification changes during the cost reporting
period, this determination must be made for each respective period.

Skagit Valley Hospital (Skagit Valley) is a 137 bed, acute-care hospital located in Mount
Vernon, Washington. Skagit Valley claimed an operating DSH adjustment of $2,159,331 on its
cost report for the fiscal year ending December 31, 2004.

For the cost report reviewed, Skagit Valley’s fiscal intermediary was Noridian Administrative
Services, LLC (Noridian). Noridian is based in Fargo, North Dakota, and at the time of our audit
served as the fiscal intermediary for hospitals in several states, including Washington.




1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 requires CMS to
transfer the functions of carriers and fiscal intermediaries to MACs by October 2011.


                                                      1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the geographic classifications used by Noridian to
calculate the Medicare operating DSH adjustment resulted in an overpayment.

Scope

We reviewed the $2,159,331 Medicare operating DSH adjustment claimed on Skagit Valley’s
cost report for the fiscal year ending December 31, 2004.

We did not verify the accuracy of the factors in the Medicare operating DSH computation, other
than to verify the accuracy of the geographic classification of the hospital.

We conducted our audit from June through December 2008.

Methodology

To accomplish our objective, we did the following:

       We reviewed applicable Federal laws and regulations.

       We interviewed CMS officials to gain an understanding of how Medicare operating DSH
        payments are calculated.

       We obtained all cost reports from the Healthcare Cost Report Information System 2 for
        acute-care inpatient hospitals whose cost reporting periods ended in calendar years 2003
        through 2006 as of March 31, 2007.

       We determined the geographic classification for all hospitals using data from the most
        recent U.S. Census to identify whether particular hospitals were geographically classified
        as rural or urban during our audit period. We then accounted for reclassifications done
        by the Medicare Geographic Classification Review Board and “Lugar” reclassifications
        (discussed below) in accordance with Section 1886(d)(8)(B) of the Act.

       We used the cost report data to recalculate the operating DSH payments based upon these
        geographic classifications to identify any hospitals that may have received an
        overpayment due to using an incorrect geographic classification. As a result of this
        process, we selected Skagit Valley’s cost report for the fiscal year ending
        December 31, 2004, for further review.




2
 The Healthcare Cost Report Information System is a national database containing financial and statistical
information extracted from hospital cost reports.


                                                         2
      We contacted Noridian and confirmed, for the applicable Federal fiscal years, how Skagit
       Valley was geographically classified and determined how Noridian calculated the
       operating DSH adjustment.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Geographic classifications used by Noridian to calculate the Medicare operating DSH adjustment
resulted in an overpayment at one hospital. Of the operating DSH adjustment of $2,159,331 that
Skagit Valley claimed on its cost report for the fiscal year ending December 31, 2004, $417,591
was excessive because Noridian calculated the operating DSH adjustment as if the hospital was
urban for the entire cost report period. However, Skagit Valley was rural for the period
January 1, 2004, through September 30, 2004. This resulted in an operating DSH overpayment
of $417,591.

FEDERAL REQUIREMENTS

Pursuant to 42 CFR § 412.106, hospitals that serve a disproportionate number of low-income
patients may receive an additional Medicare operating DSH payment. Determinations as to
whether a hospital qualifies for a Medicare operating DSH payment and the size of the payment
depend in part on whether the hospital is in an urban area or a rural area.

The geographic classifications used to determine whether the hospital is in an urban area or a
rural area are based upon the definitions in 42 CFR §§ 412.62(f) or 412.64, which generally
identify an urban area as a metropolitan statistical area as defined by the Office of Management
and Budget (OMB). On June 6, 2003, OMB began classifying geographic areas using the core-
based statistical areas identified on the decennial census conducted in 2000. CMS deferred
implementation of these definitions until October 1, 2004.

A hospital’s geographic classification can be reclassified by the Medicare Geographic
Classification Review Board through an application process in accordance with 42 CFR
§ 412.230. A hospital’s geographic classification can also be deemed urban if that
hospital meets certain criteria based on residents’ commuting patterns and population density.
These “Lugar” hospitals are located in rural counties and have been reclassified as urban under
§ 1886(d)(8)(B) of the Act.

OVERPAYMENT RECEIVED

Skagit Valley claimed an operating DSH overpayment of $417,591 because Noridian incorrectly
calculated the operating DSH adjustment as if Skagit Valley was urban for the entire cost report
period. However, Skagit Valley was rural for the period January 1, 2004, through



                                                3
September 30, 2004, and for that time period Noridian should have calculated the operating DSH
adjustment accordingly.

The OMB definitions then in effect geographically classified Skagit Valley as a rural hospital for
the period January 1, 2004, through September 30, 2004. Effective October 1, 2004, Skagit
Valley became an urban hospital with the transition to the use of core-based statistical areas
identified on the decennial census conducted in 2000. However, Noridian calculated the
operating DSH adjustment for the fiscal year ending December 31, 2004, as though Skagit
Valley was urban for the entire cost report period.

This overpayment occurred because Noridian’s internal controls did not always ensure that
hospitals received Medicare operating DSH adjustments based upon the correct geographic
classification.

RECOMMENDATION

We recommend that Noridian recover the $417,591 in Medicare operating DSH overpayment
from Skagit Valley.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Noridian did not concur with our findings and
recommendation. While Noridian did not agree that an overpayment occurred, it initiated a
reopening of the cost report to protect the government’s right to recover an overpayment pending
CMS’s resolution of the audit findings. A summary of Noridian’s other pertinent comments and
our response follows. Noridian’s comments appear in their entirety as the Appendix.

After reviewing Noridian’s comments and the additional documentation it provided, we revised
one aspect of our report as discussed below. We maintain that the remaining findings and
recommendation are valid.

Effective Date of Reclassification

Noridian Administrative Services, LLC, Comments

Noridian stated that, for the purposes of calculating the operating DSH payment, the geographic
area where Skagit Valley resides was designated as an urban area effective June 6, 2003, which
is the date that OMB issued Bulletin No. 03-04. According to Noridian, the definitions and
recognition of the areas noted on the bulletin “take effect immediately.” Noridian also said that
CMS has not issued formal guidance identifying when these changes should become effective
for the purposes of calculating DSH payments.




                                                4
Office of Inspector General Response

Although the OMB Bulletin stated that its provisions would take effect immediately, OMB stated
(in the same Bulletin) that when its definitions are used for nonstatistical programs, the
sponsoring agency must ensure appropriate use. Accordingly, CMS announced that, with respect
to Medicare hospital inpatient prospective payments systems (which would include the system to
make Medicare operating DSH payments), it would delay implementation of the new and revised
OMB definitions until the October 1, 2004, date mentioned earlier in this report. 3

Single Geographic Classification for Each Cost Reporting Period

Noridian Administrative Services, LLC, Comments

Noridian stated a hospital can have only one geographical classification for a cost reporting
period. It also said that according to 42 CFR § 412.106, the process to calculate operating DSH
payments begins with the determination of whether a hospital is urban or rural for a cost
reporting period, and added that the respective operating DSH payment is calculated based upon
that geographic classification for the entire cost reporting period.

Office of Inspector General Response

In accordance with section 1886(d)(5)(F) of the Act, the operating DSH payment is an additional
payment per discharge for hospitals serving a significantly disproportionate number of low-
income patients. The determination as to whether a hospital qualifies for an operating DSH
payment is based, in part, on the hospital’s location. In cases where the hospital’s location
changes from rural to urban (or vice versa) during the applicable cost reporting period, the fiscal
intermediary must twice determine whether the hospital qualifies for an operating DSH
payment—once using the original location (e.g., rural) for the portion of the cost reporting period
when that location was in effect, and then again using the revised location (e.g., urban) for the
remaining portion of the cost reporting period.

Sufficiency of Internal Controls

Noridian Administrative Services, LLC, Comments

Noridian did not agree that the evidence supported the statement that the overpayment occurred
“because Noridian had insufficient internal controls in place.”

Office of Inspector General Response

After reviewing Noridian’s comments, we revised our report as it pertains to the sufficiency of
Noridian’s internal controls in order to describe the cause of the overpayment more precisely.




3
    69 Fed. Reg. 48916, 49026 – 49034 (August 11, 2004).


                                                           5
APPENDIX
                                                                                                                  Page 1 of 18

                                        APPENDIX: AUDITEE COMMENTS 





               Administrative ServicBS" C                                                   Medicare
                 PO 80x 6"120
                 Far~o. NO 58108·6720

                 August 20, 200\)



                 Patrick J. Cogley
                 Regional Inspector General for Audit Services
                 Office of Inspector General, Region VII
                 601 East 12th Street, Room 0429
                 Kansas City. Missouri 64106

                 Re: 	   Re: Office of Inspector General report titled. "Review of Geographic Classification of
                         Skagit Valley Hospital for Medicare Operating Disproportionate Share Hospital
                         Payment", RCpOl1 No. A·07·09.02758, July. 2009

                 Dear Mr. Cogley:

                 Thank you for the draft report entitled "Review of Geographic Classitication of Skagit Valley
                 Hospital for Medicare Operating Disproportionate Share Hospital Payment." We appreciate the
                 opportunity to respond to the draft report's findings and recommendation. As explained below,
                 NAS does not concur with the report's draft findings.
                 Noridian Administrative Services, LLC (NAS) supports the mission of the Office of Inspector
                 Oeneral (OlO) to promote economy and efficiency throughout the Department of Health and
                 Human Services. We look forward to the final conclusion of the OIO's 13 month·long of/ol1 to
                 detcmline the proper geographic classification for one of the thousands of provider cost reports
                 we have processcd for the review period.
                 The regulations and statutes applicable to DSH payments require us to treat as \U'ban any area
                 defined by the Office of Management and Budget (OMB) as a Metropolitan Statistical Area
                 (MSA) for operating DSII payment purposes. The provider in question is located in an area
                 de!1ned by the OMB as a MSA eFfective June, 2003. CMS did not delay recognition of urban
                 status for DSH payment purposes. Applicable law governing DSH payments require a hospital to
                 be either urban or rural for all of a particular cost reporting period. Because the applicablc
                 regulations and law requirc us to recognize as urban those areas OMB has defined as MSAs for
                 the entire cost repOl1ing period, we believe our determination was correct and no overpayment
                 occurred. Our basis Jor non·concun'ence with the draft report is explained more f'llly below:
                 The Office of Management and Budget formally classified the geographic area where
                 Skagit Valley Hospital resides as urban on June 6, 2003, effective that date.
                 The OMB defines Metropolitan Statistical Areas (44 C.S.c. 3504(e)(3)}. On June 6,2003, OMB
                 issued Bulletin No. 03·04 (exhibit I) establishing the Mount Vernon·AnacoI1es, Washington as a


                                                                                                    c/I#sj
2930j ,L11 	                                A CMS Contracted Carrfer/lntermeliiary
                                                                                                Page 2 of 18




Mr. Patrick Cogley
August 26, 2009
page 2

MSA, OMB assigned code number 34580 to the newly recognized urban area. The sklted 

purpose of the bulletin was to establish revised definitions for MSAs and recognize 49 new 

MSAs. OMB stated in paragraph" I. Purpose" that the definitions and recognition of the areas 

noted on the bulletin's attached lists "take effect immediately." 

Tbe Medicare statute and eMS regulations require recognition of tbose urban areas OMB 

bas defined as MSAs. 

Section 1886(d)(2)(D) of the Social Security Act defines "urban area" as "an area within a 

Metropolitan Statistical Area (as defined by the Office of Management and Budget).". 

Pursuant to 42 CFR § 412.106, the factors considered in determining whether a hospital qualifies 

for a payment adjustment for DSH includes the hospital's location in an urban or rural area as 

"determined in accordance with the definitions in §412.62(f) or § 412.64". 

Both of the regulations referenced define the urban area relevant to Skagit Valley Hospital 

exactly the same as follows: 

         "(ii) The term urban arca means-{A) A Mctropolitan Statistical Area (MSA) or
         New England County Metropolitan Area (NECMA), as defined by the Executive
         Office of Management and Budge!." 42 erR 412.62(f)(ii)
         (li) The term urban area means- (A) A Metropolitan Statistical Area, as defined
         by the Executive Office of Management and Budget 42 CFR 412.64(b)(ii)
Our DSH calculation reflccts the gcographical classitication that Skagit Valley Hospital is
entitled to based on the regulations and the statute.
The OIG states in its Findings and Recommendation that, "effective October I, 2004, OMB
revised its definitions and began classifying geographic areas using the core based statistical
areas identified on the decennial census conducted in 2000." We do not believe tltis statement is
cOlTecl. According to the June 6, 2003 OMB Bulletin, the definitions of the statistical areas in the
bulletin's attached listings took effect immediately. On the U.S. Census Bureau Web site, the
term core based statistical area" (CBS A) refers collectively to metropolitan and micropolitan
statistical arcas." Metropolitan Statistical Areas remain a geographical classification defined by
OMB.
Throughout the preamble, comments, and text of the August 11,2004 final rule (effective
October 1,2(04) relied on by orG, eMS refers to how it "would implement OMB 's revised
standards for defining MSAs," announced by OMB on June 6,2003. CMS stated that the
purposes of the final nile:
         "relate to our policies in established regulations under § 412.63(b) governing
         geographic classification of hospitals for purposes of the wage index and the
         standardized amounts in determining tbe Federal rates for inpatient
         operating costs. 69 FR 49077 (emphasis added)."
The regulation referenced above at 42 CFR §412.64 was codified into the regulations by the
August 11,2004 final rule. It does not change the definition of a Metropolitan Statistical Area.
Rather, there are additions made that are not applicable to Mount Vemon which is covered under
the regulatory definition of an MSA (i.e. not a Lugar hospital). Skagit Valley Hospital (SVll)
resides within an MSA according to the revised regulation.
                                                                                                     Page 3 of 18




Mr. Patrick Cogley
August 26, 2009
page J

In none of the regulations relevant to OSI-!, nor anywhel'e in the August 11,2004 final rule is
there an eCCective date for purposes of OSH operating payments aside from one comment
addressing a hospital redesignated from urban to rural, which is not applicable 10 SVI-! (see 69
FR 49077). 'fhe comment does however refer to the longstanding regulation al 42 CFR §412, I02
that specifies a transition calculation that clearly uses thc gcographic classitkations for the full
cost reporting periods during the transition. The same is true for all of the transmittals concerning
CBSAs. They predominately address wage index purposes,
CMS deferred implementation of the new MSAs until October I, 2004 for wage index purposes
only, as evidenced by the following CMS statements:
        "In the proposed rule, we stated that we would evaluate the new area designations
        and their possible effects on the Medicare hospital wage index." 68 FR 45394
        (August 1,2003)
        "As discussed previously. on June 6,2003, OMB announced revised deflnitions
        ofMSAs and new definitions of Micropol itan Statistical Areas and Combined
        Statistical Areas. In order to implement these changes for the IPPS, it is
        necessary to identify the new area designation for each county and hospital in the
        country. Because this process will have to be extensively reviewed and veri lied,
        we were unable to undertake it before publication of this final rule. Therl;;fore, we
        are continuing 10 use MSAs based on OMB's delinitions of MSAs prior to June 6,
        2003." 68 FR 45475 (August I, 2003)(emphasis added.)
CMS needed additional time to implement the changes with respect to thc prospectively
detern1ined paymcnt rates used for IPPS which are updated annually on October 1st. In order to
adjust the prospective payment rates that are the main focus of 42 CFR §412.64 for labor
differences, wage index values need to be determined for all of the areas. CMS is required to
update these rates annually by October 1st. The OSH payment adjustment is not determined
prospectively as paJ1 of IPPS. The OSH payment adjustment amount is determined by
contractors for cost report settlement purposes. Contractors "make interim payments subject to a
year-end settlement based upon the hospital's DSI-! percentage ror the cost repor1ing period."
(CMS Pub 100-04, Ch. 3, §20.3) The OSll payment process is not "implemented" every October
Ist by CMS as is required for the paymcnt rate updates for claims payment and prospective
payment purposes. There was no change as a result of the August 1,2003 Ilnal rule in the; OSH
regulation at 42 CrR ~ 412.106, nor in the new regulation to be used Cor defining an MSA at 42
CFR S412.64(b) directing the Intermediary to do other than follow the plain meaning of the
regulation for DSI-! payment purposes using OMB's definitions that define Skagit Valley as an
MSA. That CMS could not physically implement the changes into the prospective payment rates
is understandable. But to delay the hospital's urban status for OSH purposes contradicts the
regulations and statute.
According to the plain language of the statute, a hospital can have only one geographical
classification for a cost reporting period.
IfCMS delayed recognition of the Mount Vernon-Anacol1es MSA until 10/1/04, the DSH statute
requires the Provider be considered urban for the entire cost reporting period. 42 CFR §412.1 06
allows an additional payment 10 IPPS hospitals if they qualify as a disproportionate share
hospital. If the hospital qualifies under certain criteria, it is paid on a formula specified tor those
                                                                                                           Page 4 of 18

-"-''----':00.:.'"- - - - - - - - - - - - - - - , . -.....- - . . -.....      ..,r-;-,.......- -....~.-..------.,.....- -.....


        Mr. Pntrick Cogley
        August 26. 2009
        page 4

        criteria, 'fherefore, the process begins with a determination of whether the hospital qualifies as a
        disproportionate share hospital. A hospital is deternlined to be either urban or rural for a cost
        reporting period based on the law, Clause (v) of the DSH statute states:
                (v) In this subparagraph, a hospital "serves a significantly disproportionate
                   number ojlow illcome patiellfs"jor a cost reportillg period if the hospital has
                   a disproportionate patient percentage (as defined in clause (vi)) for that period
                   which equals, or exceeds-­
                    (I) 15 percent,   if the hospital is located ill an urban area and has 100 or
                        more beds.
                A hospital located itl a rural area and wilh 500 or more beds also "sen·es a
                significantly disproportiollate number ojlow ill come patients" for a cost
                reporting period if the hospital has a disproportionate patient percentage (as
                det1ned in clause (vi» for that period which equals or exceeds a percentage
                specified by the Secretary, 42 U.S.c. §1395ww(d)(5)(F)(v) (emphasis added).
        According to the plain language of the statute, a hospital can only be eligible as either urban or 

        rural during a cost reporting period. 

        The second step is to determine the payment amount. Per the law governing DSH payment
        formulas, for an urban hospital with 100 or more beds (a clause iv(l) hospital). the
        disproportionate share adjustment percentage is detennined by clause (vii) as follows:
                "(vii) The fonnula useq to delermine the dispn,lportionate share adjustment
                       percentage/or a cost reportillg period for a hospital described in clause
                       (iv)(I) is-­
                       (I) in the case of such a hospital with a disproportionate patient percentage
                             (as defined in clause (vi) greater than 20.2·­

                         (d) for discharges occurring on or after October I. 1994, (p.
                             20.2)(.825)+5.88;" 42 U.S.C, § 1395ww(d)(5)(F)(vii)( emphasis
                             added.)
        That is the calculation used by Ni\S. If considered rural. the hospital would have qualified as a
        rural hospital under clause (iv)(ITI) and the adjustment percentage calculated in accordance with
        clause (xii)j(" tire cost report;nK period. If' a hospital qualifies as urban with over 100 beds,
        (clause (iv)(I» then the payment is calculated for the whole cost reporting period based on the
        applicahle fonnula under clause (vii). The statute does not allow payment under that clause for
        only a portion ofthe cost reporting period. In this case the law requires that the hospital payment
        formula is t1'om clause vii or xii for the cost reporting period. A hospital's DSH adjustment can
        only be based on its classification as rural or urban (but not both) for the cost reporting period.
        NAS determined that SVH was urban for the cost reporting period consistent with clause (v) and
        determined the appropriate adjustment percentage in accordance with clause (vii)/or the cost
        reporting period.
        To summarize. t.he regulations and the law require any areas defined by the OMB as an MSt\ to
        be treated as urhan for operating DSH payment purposes. SVH is located in Mount Vernon,
                                                                                                    Page 5 of 18




Mr. Patrick Cogley
August 26, 2009
page 5

Washington, defined by the OMB as an MSA effective June, 2003. While CMS delayed the
implementation of the new MSAs for wage index purposes, it did not delay SVH's new urban
stal1ls for DSH payment purposes. The DSH calculation as recommended by the OIG contradicts
applicable law govel1ling DS}! that only allows a hospital to be either urban or rural for a cost
reporting period,
NAS noled in the draft repmi's "stunmary of findings" section that an overpayment occurred
"because Noridian had insufficient controls in place." We believe this statement to be
unsupported by evidence. According to the draft report, all actHe care inpatient hospital cost
reports whose periods ended in calendar years 2003 through 2006 were obtained and geographic
classification determined. Drawing from this universe, a single aspect of the DSH calculation
was considered for a single cost report and 13 months later, a singlc exception noted,
Considering the complexity and differing interpretations of the regulatory scheme, further
complicated by the outcome of a once-a-decade census, we do not agree with the OIG's
statement.
If the Centers for Medicare and Medicaid Services (CMS) contil1l1S that the agency cOllcurs with
the final report's findings and directs NAS to recover a portion of the Medicare disproportionate
share hospital (DSH) payment, NAS will abide hy the agency's decision. NAS anticipated the
prolonged period for the audit and has moved to protect the govemrnent's right to recover a
potential overpayment. We have initiated reopening of Skagit Valley Hospital's Medicare cost
report for the period ended 1213 1104 pending final di~posilion of the report and C:MS
instnlClions.
If you have any questions relating to this response, please contact myself at (70 I) 282-141 5 or
Ronald Knorr at (253) 437·5475.




Michael Smith
Assistant Vice President, Medicare Part A Audit
Noridian Administrative Services, LLC

Cc: 	    Jay MaJiinson, Executive VI' and COO, NAS
         Kathy Ellingson, Senior VI' Medicare Operations, NAS
         Ronald Knorr, Manager Provider Audit, NAS
              Page 6 of 18




Exhibit 1 

                                                                                                        Page 7 of 18




                   OFF1ChOF

                  MANAGEMENT AND BUDGET
                    EXECUTIVE OFFICE OF THE PRESIDENT
                       QFf!~   Of MANAGeMeNT ANO BUDGET
                                'f'J14,t1;;NiO:TIm QC   ~




                                                    June 6, 2003

OMB BULLETIN NO. 03-04

TO THE HEADS OF EXECUTIVE DEPARTMENTS AND ESTABLISHMENTS


SUBJECT: 	   Revised Definitions of Metropolitan Statistical Areas, New
             Definitions of Micropolitan Statistical Areas and Combined
             Statistical Areas, and Guidance on Uses of the Statistical
             Definitions of These Areas


    1. 	 Purpose: This bulletin establishes revised definitions for the Nation's Metropolitan
        Statistical Areas and recognizes 49 new Metropolitan Statistical Areas. The blJlletin also
        designates Metropolitan Divisions in those Metropolitan Statistical Areas that have a
        single core with a population of at least 2.5 million. In addition, the bulletin establishes
        definitions for two new sets of statistical areas: Micropolitan Statistical Areas and
        Combined Statistical Areas. New England City and Town Areas also are defined.


        The definitions of the statistical areas in the attached eight lists take effect immediately.
        The definitions reflect the Standards for Defining Metropolitan and Micropolitan Statistical
        Areas that the Office of Management and Budget (OMB) published on December 27, 2000,
        in the Federal Register (65 FR 82228 - 82238), and the application of those standards to
        Census 2000 population and Journey··to-work data. This bulleti.n also provides guidance
        on the use of the definitions of these statistical areas.



    2. 	 Background: Pursuant to 44 U.S.c. 3504(e)(3) and 31 U.S.c. 11 04(d) and Executive Order
         No. 102 S3 Uune 11. 1951), the Office of Management and Budget (OMB) defines
         Metropolitan Statistical Areas, Micropolitan Statistical Areas, Combined Statistical Areas,
        and New England City and Town Areas for use in Federal statistical activities. The attached
         lists represent the product of OMB's once-a-decade comprehensive review of statistical
         area standards and definitions. OMB issues periodic updates of the areas between
         decennial censuses based on Census Bureau data.
                                                                                                         Page 8 of 18




3, 	 Update of Statistical Areas: This bulletin provides the definitions of all Metropolitan
    Statistical Areas, Metropolitan Divisions, Micropolltan Statistical Areas, Combined
    Statistical Areas, and New England City and Town Areas in the United States and Puerto
    Rico based on the standards published on December 27, 2000, in the Federal Register (65
    FR 82228 - 82238) and Census 2000 data. The attachment to this bulletin provides the
    following lists of statistical areas that are recognized lmder the standards'


             List I is an alphabetical list by title of 935 Metropolitan Statistical Areas and
             Micropolitan Statistical Areas.



             List 2 prOVides tnles, definitions, principal Cities, and Metropolitan DiviSions for
             370 Metropolitan Statistical Areas. There are 49 new Metropolitiln Statistical Areas
             that are identified in the list. There are 1 J Metropolitan Statistical Areas that have
             a total of 29 Metropolitan Divisions.

             List 3 presents the titles, definitions, and principal cities for 565 Micropolitan
             Statistical Areas.

             List 4 Identifies 116 Combined Statistical Areas and their 3 J 4 component
             Metropolitan and/or Micropolitan Statistical Areas.

             List 5 Identifies   In   each state tile Metropolitan Statistical Areas, Metropolitan
             Divisions, Micropolitan Statistical Areas, and Combined Statistical Areas.

             List 6 provides titles, definitions, principal cities, and New England City and Town
             Area Divisions for 42 New England City and Town Areas.

             List 7 provides titles and definitions for 9 Combined New England City and Town
             Areas and their 25 component New England City and Town Areas.

             List 8 identifies in each state the New England City and Town Areas, the New
             England City and Town Area Divisions, and the Combined New England City and
             Town Areas.

4. 	 Uses of Statistical Area Definitions: All agencies that conduct statIStical activities to col/ect
    and publish clata for Metropolitan, Micropolitan, Combined Statistical Areas, and New
    England City and Town Areas should use the most recent definitions of these areas
    established by OMS.

    OMS establishes and maintains the definitions of Metropolitan and Micropolitan Statistical
    Areas, Combined Statistical Areas, and New England City and Town Areas solely for
    statistical purposes. This classification is intenped to provide nationally consistent
    definitions for collecting, tabulating, and publishing Federal statistics for a set of
    geographiC areas. The Metropolitan and Micropolitan Statistical Area Standards do not
    equate to an urban-rural classification; many counties included in Metropolitan and
    Mlcropolitan Statistical Areas, and many other counties, contain both urban and rural
                                                                                                                                Page 9 of 18




   territory and populations.

   In periodically reviewing and revising the definitions of these areas, OMS does not take
   into account or attempt to anticipate any nonstatistical uses that may be made of the
   definitions, nor will OMB modify the definitions to meet the requirements of any
   nonstatistical program. Thus, OMS cautions that Metropolitan Statistical Area and
   Micropolitan Statistical Area definitions should not be used to develop and implement
   Federal, state, and local nonstatistical programs and policies without full consideration of
   the effects of llsing these definitions for such purpmes. These areas should not serve as a
   general-purpose geographic framework for nonstatistical activities, and they mayor may
   not be suitable for use in program funding formulas.


   OMS recognizes that some legislation specifies the use of Metropolitan Statistical Areas
   for program purposes, including the allocation of Federal funds, and will continue to work
   with the Congress to clarify the foundations of these definitions and the resultant, often
   unintended consequences of their use for nonstatistical purposes. In cases where there Is
   no statutory requirement and an agency elects to use the Metropolitan, Micropolltan, or
   Combined Statistical Area definitions in nonstatistical programs, it is the sponsoring
   agency's responsibility to ensure that the definitions are appropriate for such use. When
   an agency is publishing for comment a proposed regulation that would                                lISe   the definitions
    for a nonstatIStical purpose. the agency should seek public comment on the proposed
   use.

   An agency using the statistical definitions in a nonstatistical program may modify the
   definitions, but only for the purposes of that program. In such cases, any modifications
   should be clearly identified as deviations from the OMB statistical area definitions in order
   to avoid confusion with OMB's official definitions of Metropolitan, Micropolitan, and
   Combined Statistical Areas.




5. 	 Lists of Metropolitan, Micropolitan, and Combined Statistical Areas and New England City
     and Town Area Definitions: This bulletin and its attachment that provides the eight lists of
     statistical areas are available electronically from the OMB web site at
     http j iwww.whitehouse.gov!OMB -- go to "Bulletins" or "Statistical Programs and
     Standards." The 2000 Standards for Defining Metropolitan and Micropolitan Statistical
     Areas are also available at http:/www.lwhitehouse.gov/OMB -- go to "Statistical Programs
     and Standards." (Information on historical definitions of Metropolitan Statistical Areas is
     available from the Census Bureau's web site at:
    iJ ttll: (' 'I'ffl'I'/., £e ni\.!.i"gQYLJ2.QllllJ.;uiQrrJ www ~.~t!!1'1.i!t!t~Imel[Qm ~.,Jllm!.)


6. 	 Inquiries: Inquiries concerning the Metropolitan and Micropolitan Statistical Area
     Standards and the statistical uses of their definitions should be directed to Suzann Evinger
     (202-395-3093). Inquiries aboLit uses of the statistical area definitions in program
    administration or regLilation shoLild be directed to the appropriate agency.
                                                                                Page 10 of 18




7vf£~:1
Mitchell E. Daniels. Jr.
Director

Attilchrnent Ii 41   pages, 659 k~)
n   Errata Sheet [QUJllU.illU2LAr.eas In the Attachment to OMS Bulletio1LL.(M



                                          www.omb.gQY.
                                                                Page 11 of 18




                                      OMB Bulletin No. 03'()4
                                      Attachment



     METROPOLITAN STATISTICAL AREAS 


     MICROPOLITAN STATISTICAL AREAS 


        COMBINED STATISTICAL AREAS 


    NEW ENGLAND CITY AND TOWN AREAS 


COMBINED NEW ENGLAND CITY AND TOWN AREAS 


                      2003
                Lists 1 through 8




      Statistical and Science Policy Branch 

   Office of Information and Regulatory Affairs 

        Office of Management and Budget 

                                                                                                          Page 12 of 18




           Metropolitan Statistical Areas, Mlcropolitan Statistical Areas, 

         Combined Statistical Areas, New England City and Town Areas, and 

               Combined New England City and Town Areas •• 2003 


1, Brief Overview of the Classification

The Office of Management and Budget (OM B) published the Standards for Defining MetropOlitan and
Micropolitan Statistical Areas in a Federal Regis/er Notice (65 FR 82228·82238) on December 27, 2000,
That Notice also provides information on the multi-year public review process that preceded the adoption
of the standards, and an explanation of the key terms used in the standards, The 2000 standards replace
and supersede the 1990 standards for defining MetropOlitan Areas. OMB's 2000 standards provide for
the identification of the following statistical areas in the United States and Puerto Rico:

            Metropolitan Statistical Areas 

            Mlcropolitan Statistical Areas 

            Matropolitan Divisions 

            Combined Statistical Areas 

            New England City and Town Areas 

            New England City and Town Area Divisions 

            Combined New England City and Town Araas 


Metropolitan Statistical Areas have at least one urbani4ed area of 50,000 or more population, plus
adjacent territory that has a high degree of social and economic integration with the core as measured by
commuting ties. Micropolitan Statistical Areas - a new set of statistical areas - have at least one urban
cluster of at least 10,000 but less than 50,000 population, plus adjacent territory that has a high degree of
social and economic integration with the core as measured by commuting ties. Metropolitan and
Micropolitan Statistical Areas are defined in terms of whole counties (or equivalent entities), including in
the six New England States. If the specified criteria are met, a Metropolitan StatistiCal Area containing a
single core with a population of 2.5 million or more may be subdivided to form smaller groupings of
counties referred to as Metropolitan Divisions.

The classification includes about 93 percent of the U.S. population - about 83 percent in metropolitan
statistical areas and about 10 percent in micropolitan statistical areas. (Previously, the classification
included about 80 percent of the U.S. population.) Of 3,142 counties in the United States (the 3,141
counties at the time of the 2000 decennial census plus Broomfield, Colorado, which became a county In
November 2001),1,090 will be in the 362 metropolitan statistical areas in the United States and 674
counties will be in micropolitan statistical areas (1,378 counties will remain outside the classification).
(Previously, the classification included 847 metropolitan counties.)

In view of the importance of cities and town in New England, the 2000 standards also prOVide for a set of
geogrephic areas that are defined using cities and towns in the six New England states. The New
England City and Town Areas (NECTAs) are defined using the same criteria as MetropOlitan and
Micropolitan Statistical Areas and are identified as either metropOlitan or micropolitan, based,
respectively, on the presence of either an urbanized area of 50,000 or more population or an urban
cluster of at least 10,000 but less than 50,000 population. If the specified criteria are met, a New England
City and Town Area containing a single core with a population of at least 2.5 million may be subdivided to
form smaller groupings of cities and towns referred to as New England City and Town Area Divisions.

If speCified criteria are met, adjacent Metropolitan and Micropolitan Statistical Areas, in various
combinations, may become the components of a new set of areas called Combined Statistical Areas. For
instance, a Combined Statistical Area may comprise two or more Metropolitan Statistical Areas, a
Metropolitan Statistical Area and a Micropolitan Statistical Area, two or more Micropolitan Statistical
Areas, or multiple Metropolitan and Micropolitan Statistical Areas. The geographic components of



                                                      2
                                                                                                             Page 13 of 18




Combined New England City and Town Areas are individual metropolitan and micropolitan NECTAs, in
various combinations. The areas that combine retain their own designations as Metropolitan or
Micropolitan Statistical Areas (or NECTAs) within the larger Combined Statistical Area (or Combined
NECTAs). Combinations for adjacent areas with an employment interchange of 25 or more are
automatic. Combinations for adjacent areas with an employment interchange of at least 15 but less than
25 are based on local opinion as expressed through the Congressional delegations.

OMB's standards provide for the identification of one or more principal cities within each Metropolitan
Statistical Area. Micropolitan Statistical Area, and NECTA. (The term "principal city" replaces "central
city,' the term used in previous standards.) Principal cities encompass both incorporated places and
census designated places (CDPs). The decision to identify CDPs as principal cities represents a break
with practice in previous standards that (with some exceptionS) limited potential central city identification
to incorporated places. In addition to Identifying the more significant places in each Metropolitan and
Micropolitan Statistical Area or NECTA in terms of population and employment, principal cities also are
used In titling Metropolitan and Micropolitan Statistical Areas, Metropolitan Divisions, Combined Statistical
Areas, NECTAs, NECTA Divisions, and Combined NECTAs.

The geographic components of Metropolitan and Micropolitan Statistical Areas and Metropolit~n Divisions
are counties and equivalent entities (boroughs and census areas in Alas.ka, parishes in Louisiana,
municipios in Puerto Rico, and independent cities in Maryland, Missouri, Nevada, and Virginia). The
counties and equivalent entities used In the definitions of the Metropolitan and Micropolitan Statistical
Areas are those that were in existence as of January 1, 2000, with the exception of Broomfield County,
Colorado.

The 2000 standards do not provide for the categori;>;ation of the areas based on total population
comparable to Levels A - D under the 1990 standards.

This attachment includes the follOWing eight lists that provide information on the statistical areas that are
recognized under the 2000 standards USing data from Census 2000:

        List 1 is an alphabetical list by title of 935 Metropolitan Statistical Areas and Micropolitan
        Statistical Areas.

        List 2 provides tilles, definitions, principal cities, and Metropolitan Divisions for 370 Metropolitan
        Statistical Areas (362 in the United States and 8 in Puerto Rico). There are 49 new Metropolitan
        Statistical Areas that are identified In the list. There are 11 Metropolitan Statistical Areas that
        have a total of 29 MetropOlitan DiviSions.

        List 3 presents the tities, definitions, and principal citie» for 565 Mlcropolitan Statistical Areas (560
        In the United States and 5 in Puerto Rico).

        List 4 identifies 116 Combined Statistical Areas and their 315 component Metropolitan and/or
        Micropolitan Statistical Areas.

        List 5 identifies In each state the Melropolitan Statistical Areas, Metropolitan Divisions,
        Micropolitan Statistical Areas, and Combined Statistical Areas.

         List 6 provides titles, definitions, principal cities, and New England City and Town Area Divisions
         for 42 New England City and Town Areas.

         List 7 provides titles and definitions for 9 Combined New England City and Town Areas and their
         25 component New England City and Town Areas.

         List 8 identifies in each state the New England City and Town Areas, the New England City and
         Town Area Divisions, and the Combined New England City and Town Areas.



                                                       3
                                                                                                               Page 14 of 18




2. Guidance on Presenting Data for Metropolitan and Mlcropolitan Statistical Areas, Metropolitan
Divisions. Combined Statistical Areas, NECTAs, NECTA Divisions, and Combined NECTAs

Metropolitan and MIcropolitan Statistical Areas represent the basic set of county based areas defined
under this classification, and they are defined using the same criteria. If specified criteria are met,
Metropolitan Divisions are defined within Metropolitan Statistical Areas that have a single core with a
population of at least 2.5 million. Not all Metropolitan Statistical Areas with urbanized areas of this size
will contain MetropOlitan Divisions. Because Metropolitan Divisions represent subdivisions of (larger)
Metropolitan Statistical Areas, it Is not appropriate to rank or compare MetropOlitan Divisions with
Metropolitan and Micropolitan Statistical Areas. Itwoulc;t be appropriate to rank and cQmpare
Metropolitan Divisions.

Similarly, it Is not appropriate to rank or compare NECTA Divisions with Metropolitan and Mlcropolitan
NECTAs, but It is appropriate to rank and compare NECTA Divisions

Because Combined Statistical Areas represent groupings of Metropolitan and Micropolitan Statistical
Areas (in any combination), they should not be ranked or compared with Individual Metropolitan and
MIcropolltan Statistical Areas.

Because Combined New England City and Town Areas (NECTAs) represent groupings of Metropolitan
and Mlcropolltan NECTAs (In any combination), they should not be ranked or compared with Individual
Metropolitan and Micropolitan NECTAs.

3. Codes for Metropolitan and Micropolitan Statistical Areas, MetropOlitan Divisions, Comblnod
Statistical Areas, New England City and Town Areas (NECTAs), NECTA Divisions, and Combined
NECTAs

Codes for Metropolitan and Micropolitan Statistical Areas, Metropolitan Divisions, NECTAs, and NECTA
Divisions will be 5 digits In length. This replaces the 4·dlgit code previously used. Codes for Metropolitan
and Micropolitan Statistical Areas and Metropolitan Divisions fall within the 10000 to 59999 range and are
assigned In alphabetical order by area title. MetropOlitan Divisions are distinguished by a 5-digit code
ending In "4"

NECT A and NECTA Division codes fall within the 70000 to 79999 range and are assigned In alphabetical
order by area title. NECTA Divisions will be distinguished by a 5-dlgit code ending In "4"

Combined Statistical Area and Combined NECTA codes will be 3 digits in length. Combined Statistical
Area codes will fall within the 100 to 599 range. Combined NECTA codes will fall within the 700 \0799
range.




                                                       4
                                                                                                               Page 15 of 18




                                                     List 1

                             Metropolitan and Micropolltan Statistical Areas

ThiS list provides an alphabetical list by title of all 935 Metropolitan and Micropolitan Statistical Areas.
The code for each Metropolitan and Micropolitan Statistical Area also is provided. The 49 new
Metropolitan Statistical Areas are shown in bold print. All Micropolltan Statistical Areas are new.


                 Metropolitan or Mjcropoljtan Statistjcal Area Title

10020            Abbeville, LA Micropolitan Statistical Area
10100            Aberdeen. SO Micropolitan Statistical Area
10140            Aberdeen, WA Micropolltan Stalistical Area
10180            Abilene, TX Metropolitan Statistical Area
10220            Ada, OK Micropolltan Statistical Area
10260            A(ijuntas, PR Micropolitan Statistical Area
10300            Adrian, MI Micropolitan Statistical Area
10380            Aguadilla-Isabela-San Sebastian, PR Metropolitan Statistical Area
10420            Akron, OH Metropolitan Statistical Area
10460            Alamogordo, NM Micropolitan Statistical Area
10500            Albany, GA Metropolitan Statistical Area
10540            Albany-Lebanon, OR Micropolitan Statistical Area
10580            Albany-Schenectady-Troy. NY Metropolitan Statistical Area
10620            Albemarle, NC Micropolitan Statistical Area
10660            Albert Lea. MN Micropolitan Statistical Area
10700            Albertville, AL Micropolltan Statistical Area
10740            Albuquerque. NM Metropolitan Statistical Area
10780            Alexandria, LA Metropolitan Statistical Area
10820            Alexandria, MN Micropolitan Statistical Area
10860            Alice, TX Micropolitan Statistical Area
10880            Allegan, MI Micropolitan Statistical Area
10900            Allentown-Bethlehem-Easton, PA·NJ Metropolitan Statistical Area
10940            Alma, MI Mlcropolitan Statistical Area
10980            Atpena, MI Mlcropolitan Statistical Area
11020            Altoona, PA Metropolitan Statistical Area
11060            Altus, OK Micropolitan Statistical Area
11100            Amarillo, TX Metropolitan Statistical Area
11140            Americus, GA Micropolitan Statistical Area
11180            Ames, tA Metropolitan Statistical Area
11220            Amsterdam, NY Micropolitan Statistical Area
11260            Anchorage, AK Metropolitan Statistical Area
11300            Anderson, IN Metropolitan Statistical Area
11340            Anderson, SC Metropolitan Statistical Area
11380            Andrews. TX Micropolitan Statistical Area
11420            Angola. IN Mlcropolitan Statistical Area
11460            Ann Arbor, MI Metropolitan Statistical Area
11500            Anniston·Oxford, AL Metropolitan Statistical Area
11540            Appleton, WI Metropolitan Statistical Area
11580            Arcadia, FL Micropolitan Statisticat Area
11620            Ardmore, OK Micropolitan Statistical Area
11660            Arkadelphia, AR Micropolitan Statistical Area
11700            Asheville, NC MetropOlitan Statistical Area
11740            Ashland. OH Micropolitan Statistical Area
                                                                                     Page 16 of 18




  33140   Michigan City-La Porte, IN Metropolitan Statistical Area
  33180   Middlesborough, KY Micropolitan Statistical Area
  33220   Midland, MI Micropolitan Statistical Area
  33260   Midland, TX Metropolitan St"tisjical Area
  33300   Milledgeville, GA Micropolitan Statistical Area
  33340   Milwaukee-Waukesha-West Allis, WI Metropolitan Statistical Area
  33380   Minden, LA Micropolitan Statistical Area
  33420   Mineral Wells, TX Micropolitan Statistical Area
  33460   Minneapolis-St. Paul-Bloomington, MN-WI Metropolitan Statistical Area
  33500   Minot. ND Micropolitan Statistical Area
  33540   Missoula, MT Metropolitan Statistical Area
  33580   Mitchell, SD Micropolitan Statistical Area
  33620   Moberly, MO Micropolltan Statistical Area
  33660   Mobile, AL Metropolitan Statistical Area
  33700   Modesto, CA Metropolitan Statistical Area
  33740   Monroe, LA Metropolilan Stalistical Area
  33780   Monrol1, MI Metropolitan Statistical Area
  33820   Monroe, WI Micropolitan Statistical Area
  33860   Montgomery, AL Metropolitan Statistical Area
  33940   Montrose, CO Micropolitan Statistical Area
  33960   Morehead City, NC Micropolitan Statistical Area
  34020   Morgan City, LA Micropolltan Statistical Area
  34060   Morgantown, WV Ml1tropolitan Statistical Arl18
  34100   Morristown, TN Metropolitan Statistical Area
  34140   Moscow, ID Micropolitan Statistical Area
  34180   Moses Lake, WA Micropolitan Statistical Area
  34220   Moultrie, GA Micropolitan Statistical Area
  34260   Mountain Home, AR Micropolitan Statistical Area
  34300   Mountain Home, ID Micropolltan Statistical Area
  34340   Mount Airy, NC Micropolitan Statistical Area
  34380   Mount Pleasant, MI Micropolitan Statistical Area
  34420   Mount Pleasant, TX Micropolitan Statistical Area
  34460   Mount Sterling, KY Micropolitan Statistical Area
  34500   Mount Vernon. IL Micropolitan Statistical Area
  34540   Mount Vernon. OH Micropolitan Statistical Area
*34580    Mount Vernon-Anacortes, WA Metropolitan Statistical Area
  34620   Muncie, IN Metropolitan Statistical Area
  34660   Murray, KY Micropolitan Statistical Area
  34700   Muscatine, IA Micropolitan Statistical Area
  34740   Muskegon-Norton Shores, MI Metropolitan Statistical Area
  34780   Muskogee. OK Micropolitan Statistical Area
  34820   Myrtle Beach-Conway-North Myrtle Beach, SC Metropolitan Statistical Area
  34660   Nacogdoches, TX Micropolitan Statistical Area
  34900   Napa, CA Metropolitan Statistlcai Area
  34940   Naples-Marco Island, FL Metropolitan Statistical Area
  34960   Nashville-Davidson-Murfreesboro, TN Metropolitan Statistical Area
  35020   Natchez, M$-LA Micropolitan Statistical Area
  35060   Natchitoches, LA Micropolitan Statistical Area
  35100   New Bern, NC Micropolitan Statistical Area
  35140   Newberry, SC Micropolitan Statistical Area
  35220   New Castle, IN Micr9Politan Statistical Area
  35260   New Castle, PA Micropolitan Statistical Area
  35300   New Haven-Milford, CT Metropolitan Statistical Area
  35340   New Iberia, LA Micropolitan Statistical Area
  35380   New Orleans -Metairie-Kenner, LA Metropolitan Statistical Area
  35420   New Philadelphia-Dover, OH Micropolitan Statistical Area



                                            15
                                                                                                Page 17 of 18




     33260   Midland, TX Metropolitan Statistical Area 

                 Principal City: Midland 

                     Midland County 


     33340   Milwaukee-Waukesha-West Allis, WI Metropolitan Statistical Area
                 Principal Cities: Milwaukee, Waukesha, West Allis
                     Milwaukee County, Ozaukee County, Washington County, Waukesha County

     33460 Minneapolis-St, Paul-Bloomington, MN-WI Metropolitan Statistical Area
              Principal Cities: Minneapolis, MN; SI. Paul, MN; Bloomington, MN; Plymouth, MN;
                  Eagan, MN; Eden Prairie, MN; Minnetonka, MN
                  Anoka County, MN; Carver County, MN; Chisago County, MN; Dakota County,
                  MN; Hennepin County, MN; Isanti County, MN; Ramsey County, MN; Scott
                  County, MN; Sherburne County, MN; Washington County, MN; Wright County,
                  MN; Pierce County, WI; St, Croix County, WI

     33540   Missoula, MT Metropolitan Statlslical.Area 

                 Principal City: Missoula 

                     Missoula County 


     33660   Mobile, AL Metropolitan Statistical Area 

                Principal City: Mobile 

                     Mobile County 


     33700   Modesto, CA Metropolitan Statistical Area 

                Principal City; Modesto 

                    Stanislaus County 


     33740   Monroe, LA Metropolitan Statistical Area 

                Principal City: Monroe 

                    Ouachita Parish, Union Parish 


     33780   Monroe, MI Metropolitan Statistical Area (New) 

                Principal City: Monroe 

                    Monroe County 


     33860   Montgomery, AL MetropOlitan Statistical Area
                Principal City: Montgomery
                    Autauga County, Elmore County, Lowndes County, Montgomery County

     34060   Morgantown, Wo/ Metropolitan Statistical Area (New) 

                Principal City: Morgantown 

                    Monongalia County, Preston County 


     34100 Morristown, TN MetropOlitan Statistical Area (New) 

              PrinCipal City: Morristown 

                   Grainger County, Hamblen County, Jefferson County 


*"   34580 Mount Vernon-Anacortes, WA Metropolitan Statistical Area (New) 

              Principal Cities: Mount Vernon, Anacortes 

                  Skagit County                  ,


     34620   Muncie, IN Metropolitan Statistical Area 

                Principal City: Muncie 

                    Delaware County 




                                                      40
                                                                                                      Page 18 of 18




YimJnja
  13980 Blacksburg-Christiansburg-Radford, VA                         Metropolitan Statistical Area
  14140 Bluefield, VW·VA (part)                                       Micropolitan Statistical Area
  14980 Bristol, VA                                                   Metropoillan Statistical Area
  16820 Charlottesville, VA                                           Metropolitan Statistical Area
  19260 Danville, VA                                                  Metropolitan Statistical Area
  25500 Harrisonburg. VA                                              Metropoillan Statistical Area
  304    Johnson City-Kingsport-Bristol, TNNA (part)                  Combined Statistical Area
  28700 Kingsport-Bristol, TNNA (part)                                MetropOlitan Statistical Area
  31340 Lynchburg, VA                                                 Metropolitan Statistical Area
  32300 Martinsville, VA                                              Micropolitan Statistical Area
  40060 Richmond, VA                                                  Metropolitan Statistical Area
  40220 Roanoke, VA                                                   Metropolitan Statistical Area
  44420 Staunton-Waynesboro, VA                                       Micropotitan Statistical Area
  47260 Virginia Beach·Norfolk·Newport News, VA·NC (part)             Metropolitan Statistical Area
  47900 Washington·Arlington-Alexandria, DC-VA-MD·VW (part)           Metropolitan Statistical Area
    47894 Washington-Arlington-Alexandria, DC-VA-MD-VW (part)         Metropolitan Division
  548    Washington-Baltimore-Northern Virginia, DC-MD-VA-VW (part)   Combined Statistical Area
  49020 Winchester, VA-VW (part)                                      Metropolitan Statistical Area

Washington 

 10140 Aberdeen, WA 
                                                 Micropolitan Statistical Area
 13380 Bellingham, WA 
                                               Metropolitan Statistical Area
 14740 Bremerton-Silverdale, WA 
                                     Metropolitan Statistical Area
 16500 Centralia, WA 
                                                Micropolitan Statistical Area
 21260 Ellensburg, WA 
                                               Micropolitan Statistical Area
 28420 Kennewick-Richland-Pasco, WA 
                                 Metropolitan Statistical Area
 30300 Lewiston, I D -WA (part) 
                                     Metropolitan Statistical Area
 31020 Longview-Kelso. WA 
                                           Metropolitan Statistical Area
 34160 Moses Lake. WA 
                                               Micropolltan Statistical Area
*34580 Mount Vernon-Anacortes, WA
 36020 Oak Harbor, WA
                                                                      MetropOlitan Statistical Area
                                                                      Micropolitan Statistical Area
 36500 Olympia, WA                                                    Metropolitan Statistical Area
 38820 Port Angeles, WA                                               Micropolitan Statistical Area
 38900 Portland-Vancouver-Beaverton, OR·WA (part)                     Metropolitan Statistical Area
 39420 Pullman, WA                                                    Micropolltan Statistical Area
 42660 Seattla·Tacoma-Bellevue, WA                                    Metropolitan Statisiical Area
   42844 Seattle-Bellevue-Everett, WA                                 Metropolitan Division
   45104 Taccma, WA 
                                                 MetropOlitan Division
 500      Seattle· Tacoma-Olympia, WA 
                               Combined Statistical Area
 43220 She~on, ~A 
                                                   Mlcropolitan Statistical Area
 44060 Spokane, WA 
                                                  Metropolitan Statistical Area
 47460 Walla Walla, WA 
                                              Micropolitan Statistical Area
 48300 Wenatchee, WA 
                                                Metropolitan Statistical Area
 49420 Yakima. WA 
                                                   Metropolitan Statistical Area

West Yirgjnja
    13220    Beckley, VW 
                                            Micropolltan Statistical Area
    t 38     Beckley-Oak Hill, VW 
                                   Combined Statistical Area
    14140    Bluefield. VW-VA (part) 
                                Micropolitan Statistical Area
    16620    Charleston, VW 
                                         Metropolitan Statistical Area
    t 7220   Clarksburg. VW 
                                         Micropolitan Statistical Area
    19060    Cumberland, MD-VW (part) 
                               Metropolitan Statistical Area
    21900    Fairmont. VW 
                                           Mlcropolitan Statistical Area
    242      Fairmont-Clarksburg, VW 
                                Combined Statistical Area
    25180    Hagerstown·Martinsburg, MD-VW (part) 
                   MetropOlitan Statistical Area
    26580    Huntington-Ashland, VW-KY-OH (part) 
                    MetropOlitan Statistical Area
    34060    Morgantown, VW 
                                         Metropolitan Statistical Area
    36060    Oak Hill, VW 
                                           Micropolitan Statistical Area
    37620    Parkersburg-Marietta, WV-OH (part) 
                     Metropolitan Statistical Area
    38580    Point Pleasant, VW-OH (part) 
                           Micropolitan Statistical Area




                                                      125
